No.

IN THE SUPREME COURT OF THE UNITED STATES

DAVID PAUL MARTINEZ,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

DECLARATION OF TIMELY FILING
Petitioner David Paul Martinez, through undersigned counsel and pursuant
to Sup. Ct. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third-party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 29th day of January, 2021, which is
timely pursuant to the rules of this Court.
Dated: January', 2021

STEVEN G, KALAR
Federal I9tiblic Defender

VARELL L. FULLER*
Assistant Federal Public Defender
* Counsel of Record
LARA S. VINNARD
Assistant Federal Public Defender
55 South Market Street, Suite 820
San Jose, CA 95113
varell_fuller@fd.org
(408) 291-7753

